Visa Signature® Credit Card Disclosure
These Rules govern your participation in MSU Federal Credit Union’s Visa Signature Credit Card Cash Back
Rewards Program (also referred to as the “Program”). Your participation in this Program enables you to earn cash
back rewards that will be deposited directly into your MSU Federal Credit Union account. “We,” “us,” and “ours”
means or refers to this Credit Union. “Cardholder” means an individual who has requested and/or received a Visa
Signature Credit Card (also referred to as a “Card”). By using or accepting a Card, you (as a Cardholder) agree to
these Rules and any changes, additions, or deletions to them. We issue and administer all Cards. Your rewards
can be found by accessing your account on the mobile app or ComputerLine at www.msufcu.org or by contacting
us at 800-678-4968. Hours of operation are Monday through Friday from 7:00 a.m. to 9:00 p.m. and Saturday from
9:00 a.m. to 3:00 p.m. ET. We manage and administer the Program. These Rules and Card transactions are also
subject to other agreements you may have with us (for example, Cardholder agreements).
General
1. The Program is offered at the sole discretion of MSU Federal Credit Union. We reserve the right to change
these Rules at any time, for any reason, and without notice, and this includes the right to suspend or end the
program, cancel outstanding cash back rewards, or change redemption of outstanding rewards. We do not
assume any liability whatsoever for these changes.
2. Cards and related accounts may be subject to fees and charges in accordance with the applicable Cardholder
agreements and fee schedules.
3. In the event of Cardholder fraud, abuse of the Program privileges, or violation of the Rules, we, at our sole
discretion, reserve the right to cancel your participation in the Program which may result in the forfeiture of cash
back rewards.
4. You are responsible for any personal tax liability related to participation in the Program or as a result of cash
back rewards earned or redeemed.
5. The Program is void where prohibited by law.
6. We reserve the right to alter the Program and policies and will be the final authority on cash back rewards
credits and award qualifications.
Earning Cash Back Rewards
1. Cardholders will earn the following cash back rewards: 3% on groceries; 2% on gas, travel (airlines, hotels,
motels, resorts, taxi/limo, and car rentals) and universities (when making tuition payments to MSU using a credit
card, a service fee of 2.2% will be charged by the university); and 1% on all other purchases for every one U.S.
dollar ($1 in eligible net purchases made on their Visa Signature Credit Cards rounded to the nearest whole
dollar).
2. MSU Federal Credit Union uses merchant category codes to determine whether your purchase is within a
certain category that earns rewards, such as groceries, gas, travel, and universities. Merchants determine the
merchant category code used to identify transactions, which could impact the amount of cash back you earn. We
are not responsible for merchant category codes used by merchants.
3. “Net purchases” are defined as the dollar value of goods and services purchased with a Card beginning with
the first day of the billing cycle minus any credits, returns, or other adjustments as reflected on monthly billing
statements.
4. Transactions excluded from cash back rewards calculation include: (a) cash advances, ATM withdrawals,
convenience checks, balance transfers, and any PIN (Personal Identification Number) transactions, except as

otherwise permitted in special promotional offers; (b) any fees and card-related charges posted to the Card
account, including late fees and finance charges as outlined in the applicable Cardholder agreement; or (c) tax
payments or any unauthorized charges or transactions.
5. Negative cash back rewards will post on a statement if returns or credits exceed purchases.
6. Cash back rewards may be earned only if the applicable account is in good standing. A Card account is not in
good standing if closed or suspended. If the account is closed by either you or us for any reason, all cash back
rewards that have been accumulated but unused will be forfeited immediately.
7. Cash back rewards accrual will begin upon activation of your Card.
8. The amount of cash back rewards a Cardholder can earn in a calendar year is unlimited.
9. Cash back rewards earned will be credited on a daily basis, and will be displayed on the monthly statement.
10. Cash back rewards do not expire. Cash back rewards are not considered your property and are generally not
transferable upon death, as part of a legal settlement, or as part of a domestic relations issue.
Redeeming Cash Back Rewards
1. Access ComputerLine or our mobile app, contact our Call Center at 800-678-4968, or visit any branch for
redemption inquiries and to redeem your cash back rewards.
2. To redeem your cash back, select the account where it will be deposited and the amount. You can redeem
your cash back rewards at any time, in any amount. Cash redemptions will be credited to your MSU Federal
Credit Union account within one business day of a redemption request.

11/19

